Department of Homeland Security
   Ofﬁce of Inspector General

      Improvements in Patch and Configuration 

    Management Controls Can Better Protect TSA’s 

           Wireless Network and Devices 

                     (Redacted)
 





OIG-11-99                                    July 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      July 29, 2011

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the actions taken by the Transportation Security Administration
(TSA) to implement effective controls to ensure that sensitive information processed by
its wireless network and systems is protected from potential exploits. This report is based
on a review of internal policies and procedures, interviews with TSA management
officials and personnel within the Office of Information Technology and the Federal Air
Marshal Service, physical security assessments, vulnerability assessments, direct
observations, and a review of applicable documentation.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Frank W. Deffer
                                      Assistant Inspector General, IT Audits
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................6 


     Actions Taken To Secure TSA’s Wireless Network, Systems, and Devices ................6 


     Missing Security Patches Weaken Wireless Security..................................................12 

     Recommendations........................................................................................................16

     Management Comments and OIG Analysis ................................................................16 


     DHS’ Baseline Configuration Controls Have Not Been Fully Implemented on 

     All Wireless Devices and Supporting Infrastructure Systems .....................................17 

     Recommendations........................................................................................................20

     Management Comments and OIG Analysis ................................................................20 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................22 

     Appendix B:           Management Comments to the Draft Report .......................................25 

     Appendix C:           Examples of TSA Headquarters High-Risk Vulnerabilities ................28 

     Appendix D:           Examples of FAMS High-Risk Vulnerabilities ...................................29 

     Appendix E:           Major Contributors to this Report ........................................................30 

     Appendix F:           Report Distribution ..............................................................................31 


Abbreviations
     BES                                    BlackBerry Enterprise Server
          

     DHS                                    Department of Homeland Security
 

     DOS                                    denial-of-service
           

     EAP                                    Extensible Authentication Protocol
 

     FAMS                                   Federal Air Marshal Service
 

     FAMSNet                                FAMS Network
          

     IEEE                                   Institute of Electrical and Electronics Engineers
 

     IT                                     information technology
                

     LAN                                    local area network
 

     NIST                                   National Institute of Standards and Technology
 

     OIG                                    Office of Inspector General
 

     PDA                                    personal digital assistant 

     PKI                                    Public Key Infrastructure
         

Table of Contents/Abbreviations 


  RADIUS        Remote Authentication Dial-In User Service
  SP            Special Publication
  SQL           Structured Query Language
  TLS           Transport Layer Security
  TSA           Transportation Security Administration
  TSANet        TSA Network
  WLAN          wireless local area network
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     Our audit focused on whether the Transportation Security
                     Administration (TSA) has implemented effective controls to
                     ensure that sensitive information processed on its wireless network
                     and BlackBerry devices is protected from potential exploits. It
                     included TSA headquarters’ wireless network components and
                     devices, as well as the wireless devices and support infrastructure
                     used by the Federal Air Marshal Service. We used specialized
                     scanning hardware and software to determine whether any rogue
                     access points or unauthorized wireless networks or devices were in
                     use at selected facilities. Further, we conducted scans to detect
                     signal leakage from wireless access points outside TSA
                     headquarters’ office buildings.

                     Overall, TSA has implemented effective physical and logical
                     security controls to protect its wireless network and devices. We
                     did not detect any high-risk vulnerabilities on its wireless network
                     infrastructure or rogue or unauthorized wireless networks or
                     devices attributed to TSA or the Federal Air Marshal Service.
                     Although we identified signal leakage from TSA’s wireless
                     network, we determined that this was not a security risk because of
                     the mitigating controls implemented. However, we identified
                     high-risk vulnerabilities involving patch and configuration
                     controls. Improvements are needed to enhance the security of
                     wireless components to fully comply with the department’s
                     information security policies and better protect TSA’s and Federal
                     Air Marshal Service’s wireless infrastructure against potential
                     risks, threats, and exploits.

                     We are making four recommendations in our report to the TSA
                     Chief Information Officer. Management concurred with all of the
                     recommendations and has already begun implementing them. The




        Improvements in Patch and Configuration Management Controls Can Better Protect
                              TSA’s Wireless Network and Devices

                                            Page 1
                          response from the Administrator, TSA, is summarized and
                          evaluated in the body of this report and included, in its entirety, as
                          Appendix B.

Background
                 Because wireless networks and devices offer connectivity without the
                 physical restrictions associated with wired infrastructures, the use of
                 wireless technology has grown more popular. Wireless networks and
                 devices can offer many benefits to government agencies, such as expanded
                 network accessibility that promotes increased flexibility for the federal
                 workforce. Further, remote accessibility may allow federal employees to
                 perform critical functions and maintain government continuity of operations
                 in the event of an emergency situation or natural disaster. However,
                 wireless networks and devices also present significant security challenges,
                 including cyber threats, weak physical controls of wireless infrastructure
                 and devices, and unauthorized (i.e., rogue) deployments of wireless access
                 points.1

                 The National Institute of Standards and Technology (NIST) identified
                 several potential threats and attack types that may be used to compromise
                 a wireless network. Figure 1 summarizes the potential threats identified,
                 with brief descriptions of each.




1
 A “rogue” access point is one that is accessible to an organization’s employees but is not managed as part
of the approved network. Most rogue access points are installed by employees and not managed by system
administrators.

             Improvements in Patch and Configuration Management Controls Can Better Protect
                                   TSA’s Wireless Network and Devices

                                                  Page 2
      Figure 1: Potential Threats to Wireless Networks
          Potential Threat           Attack
                                          2                           Brief Description
              Types                  Type
                                                 An attacker will monitor wireless data transmissions
       Eavesdropping                 Passive     between devices for message content, such as
                                                 authentication credentials or passwords.
                                                 An attacker can gain intelligence by monitoring the
                                                 transmissions for patterns of communication. A
       Traffic Analysis              Passive
                                                 considerable amount of information is contained in the
                                                 flow of messages between communicating parties.
                                                 An attacker prevents or prohibits the normal use or
       Denial-of-Service (DOS)        Active
                                                 management of a wireless local area network (WLAN).
                                                 An attacker impersonates an authorized user to gain
       Masquerading                   Active
                                                 access to certain unauthorized privileges.
                                                 An attacker monitors transmissions (passive attack) and
       Message Replay                 Active
                                                 retransmits messages posing as the legitimate user.
                                                 An attacker alters a legitimate message by deleting,
       Message Modification           Active
                                                 adding to, changing, or reordering the message.

      Source: NIST Special Publication (SP) 800-48, Revision 1, p. 3-1.

                  Wireless systems include local area networks (LANs), personal area
                  networks, laptop computers, cellular phones, and other devices, such as
                  wireless headphones and other handheld devices.3 The most common
                  transmission standards used for wireless devices are the Institute of
                  Electrical and Electronics Engineers (IEEE) 802.11 (802.11x) standards
                  and 802.15 Bluetooth technologies.4

                  Wireless networks increase the reach of conventional wired networks by
                  using radio wave signals to transmit data to wireless-enabled devices, such
                  as laptop computers, smartphones, and personal digital assistants (PDA).
                  For example, a WLAN can be formed by establishing connections through




2
  According to NIST, a passive attack occurs when an unauthorized party gains access to an asset and does
not modify its content or actively attack or disrupt a WLAN. An active attack occurs when an unauthorized
party modifies a message, data stream, or file.
3
  A personal area network is the interconnection of information technology (IT) devices within the range of
an individual person.
4
  The 802.11x wireless standard can include but is not limited to all 802.11 standards, such as
802.11a/b/g/n. The range of 802.11n devices can reach up to 1,400 feet.

             Improvements in Patch and Configuration Management Controls Can Better Protect
                                   TSA’s Wireless Network and Devices

                                                     Page 3
                   a wireless access point or via ad hoc networks to other
                   802.11x-compatible devices, such as laptop computers, smartphones, and
                   PDAs. Handheld devices and other smartphones may have special
                   features, such as data storage, access to electronic mail and corporate
                   enterprise applications, voice and text messaging, and internet browsing
                   through cellular services or 802.11x technologies. Today, most laptop
                   computers and printers are equipped with both 802.11x and Bluetooth
                   functionality built-in.

                   The Bluetooth communication protocol is used primarily for wireless
                   connectivity between several types of devices, including smartphones,
                   laptops, printers, and headsets. Bluetooth is defined as an open standard
                   designed for short-range radio frequency communication, most commonly
                   about 30 feet. Bluetooth technology is often used to create wireless
                   personal area networks between two or more devices, commonly referred
                   to as ad hoc or peer-to-peer networks.

                   In June 2004, we reported that the Department of Homeland Security
                   (DHS) had not implemented effective controls to protect its wireless
                   networks and devices and prevent unauthorized access points from
                   connecting to its networks.5 Specifically, we determined that intrusion
                   detection systems were not installed to monitor wireless activity. In
                   addition, we identified two rogue wireless access points at a component’s
                   facility, non-DHS wireless signals broadcasting beyond the physical
                   boundaries at DHS component facilities, and Bluetooth enabled on three
                   government-issued laptop computers. In August 2005, we identified
                   another unauthorized wireless access point at a component.6 The
                   weaknesses reported were indicators that DHS had not implemented
                   strong controls to ensure that only legitimate users can access network
                   resources.

                   As part of its Wireless Infrastructure Project, TSA’s Office of Information
                   Technology began implementing wireless connectivity in 2007. The project
                   consists of two phases designed to provide wireless accessibility to TSA
                   personnel at its headquarters and approximately 400 commercial airports
                   across the country. As part of the first phase, TSA has deployed a wireless




5
    Inadequate Security Controls Increase Risks to DHS Wireless Networks (OIG-04-27), June 2004.
6
    Improved Security Required for U.S. Coast Guard Networks (OIG-05-30), August 2005.

               Improvements in Patch and Configuration Management Controls Can Better Protect
                                     TSA’s Wireless Network and Devices

                                                   Page 4
                 infrastructure at its headquarters facility, which provides personnel with
                 access to the TSA Network (TSANet).7 Wireless connectivity is available
                 in TSA headquarters’ conference rooms, training rooms, and other common
                 areas. TSA has also issued its personnel, including airport staff, with
                 BlackBerry devices for mobile communications and data accessibility. The
                 devices are supported using a centrally managed BlackBerry Enterprise
                 Server (BES) infrastructure.8 The second phase of the project, which
                 consists of providing wireless network connectivity at airport locations, has
                 not yet been implemented.

                 The Federal Air Marshal Service (FAMS), a separate organization within
                 TSA, does not maintain a wireless network. However, FAMS personnel
                 rely extensively on their              devices as a primary means of
                 communication in carrying out their mission and national security
                 responsibilities to help secure and protect the United States’ aviation
                 system, including aircraft, airports, passengers, and crew, from criminal
                 and terrorist attacks. FAMS personnel require secure mobile
                 communications, including Bluetooth capabilities, to perform their
                 mission. These devices are supported by FAMS’ own centrally managed
                       backbone infrastructure under the FAMS Network (FAMSNet).9
                 Microsoft Windows 2003 servers host the           application used to
                 administer the              devices FAMS personnel use.

                 As part of our audit, we used laptops equipped with wireless scanning
                 software to identify any unauthorized networks that could be attributed to
                 TSA and verify the signal coverage for access points outside of TSA
                 headquarters. Our laptops were equipped with AirMagnet Wi-Fi Analyzer
                 Pro to detect wireless networks and capture identification and
                 authentication information, including service set identifier, media access
                 control address, authentication protocol, and signal strength. We scanned
                 for 802.11x signals at selected TSA and FAMS facilities in both the
                 Washington, DC, metropolitan area and field offices. We then analyzed




7
  TSANet provides wide area network backbone connectivity between all TSA locations and field offices. 

Additionally, TSANet provides Domain Name Service, virtual private network, and wireless access services.

8
  A BES is software that is hosted (typically) by a Microsoft Windows Server 2003 or 2008 and used to 

administer BlackBerry device deployment and security. Depending on the infrastructure, a Microsoft
 

Structured Query Language (SQL) database may be used to support functionality.

9
  FAMSNet facilitates internet access as well as internal access to FAMS’ information systems.
 


             Improvements in Patch and Configuration Management Controls Can Better Protect
                                   TSA’s Wireless Network and Devices

                                                  Page 5
           the recorded data to determine the presence of TSA wireless access points
           and other unauthorized networks or devices.

           We also evaluated the effectiveness of controls implemented on TSANet,
           as well as the TSA BES system and FAMS            infrastructure under
           FAMSNet, using Tenable Nessus scanning software to identify any
           security vulnerabilities. TSANet and the TSA BES system are managed
           by TSA’s Office of Information Technology and hosted at TSA
           headquarters. The FAMSNet           infrastructure is managed by FAMS
           personnel and hosted at FAMS’ primary data center. The TSA and FAMS
                systems provide a two-way communications link between a user’s
                            account and the user’s assigned              device.

           Since both TSA and FAMS are using a current
           software that allows security controls to be centrally managed from the
           server, we obtained and analyzed               policy settings for both TSA
           and FAMS devices to determine if controls were implemented according
           to DHS policy. When applied, the server’s security settings propagate
           down and become mandatory for all                 smartphones.
           Additionally, we evaluated physical security controls related to building
           and system access, perimeter security, media access and storage, facility
           emergencies, visitor access, and environmental controls.

Results of Audit
     Actions Taken To Secure TSA’s Wireless Network, Systems, and
     Devices
           TSA has implemented policies, processes, and mitigating physical and
           system controls to protect its WLAN, supporting infrastructure, and
           devices from potential exploits. We did not identify any high-risk
           vulnerabilities on TSA’s WLAN infrastructure, or any rogue or
           unauthorized wireless devices. In addition, an intrusion detection system
           has been implemented to monitor wireless activity. Further, FAMS has
           actively worked to secure its infrastructure from the risks associated with
           wireless and Bluetooth devices.




       Improvements in Patch and Configuration Management Controls Can Better Protect
                             TSA’s Wireless Network and Devices

                                           Page 6
                           Controls Implemented To Mitigate Signal Leakage Identified
                           at TSA Headquarters

                           We conducted wireless scans to verify access point signal coverage
                           outside TSA headquarters’ office buildings. We used the
                           AirMagnet Wi-Fi Analyzer Pro to conduct testing and walked
                           throughout TSA headquarters to determine the use and assess the
                           security implemented on the wireless access points.10 Based on
                           our scans, we identified 51 wireless access points that were
                           positively attributed to TSA, 7 of which were confirmed as
                           nonoperational. Confirmation was conducted via physical
                           proximity to the devices, as well as the media access control
                           address identified by the scans, to the externally facing side of each
                           access point provided by headquarters.

                           We were able to identify signal leakage around two buildings at
                           TSA headquarters. However, because of mitigating controls, such
                           as a hidden service set identifier, requirement for the specific
                           client, strong Federal Information Processing Standards 140-2
                           certified encryption, and a TSA-controlled and -issued digital
                           certificate required on both user laptops and the authentication
                           server, we determined that this leakage is not a security risk.

                           TSA Is Complying With Wireless Standards and Policies

                           During the audit, we determined that both TSA and FAMS are
                           adhering to DHS and NIST 802.11 wireless and Bluetooth
                           standards to secure their wireless infrastructure and devices. TSA
                           has also developed its own IT security policies and procedures
                           regarding the operation and management of its wireless services
                           and devices. TSA’s policies for 802.11x and Bluetooth devices
                           outline the minimum technical metrics for the development and
                           use of the technologies, as well as the technical standards.11 In




10
   The AirMagnet Wi-Fi Analyzer Pro automatically detects and alerts users to wireless intrusions, 

penetration attempts, and hacking strategies, including rogue devices, devices sending unencrypted data, 

and other potentially damaging security configurations. 

11
   TSA’s wireless policy is defined in its Information Technology Security Division SPA TS-003; 

Bluetooth policy is defined in SPA TS-004. 


             Improvements in Patch and Configuration Management Controls Can Better Protect
                                   TSA’s Wireless Network and Devices

                                                  Page 7
                           addition, TSA has developed guidance for the acceptable use of its
                           BlackBerry smartphones. The guidance addresses help desk
                           processes that cover incident management (i.e., broken or
                           nonfunctional handheld units, lost or stolen handheld units,
                           deactivation process, suspension of handheld service, and
                           reassignment process) and request management (i.e., BlackBerry
                           handheld requests and additional equipment requests).

                           In addition, TSA has implemented strong authentication and
                           encryption methods to secure its WLAN to maintain the integrity
                           and confidentiality of DHS’ data. DHS requires that strong
                           authentication methods be employed to protect wireless networks
                           and devices. Specifically, the policy cites Extensible
                           Authentication Protocol-Transport Layer Security (EAP-TLS)12
                           and the use of an enterprise Remote Authentication Dial-In User
                           Service (RADIUS)13 as a strong authentication method. Further,
                           TSA has implemented the Wireless Fidelity Protected Access 2
                           Enterprise, which includes EAP-TLS architecture and a RADIUS
                           Public Key Infrastructure (PKI) digital certificate authority to
                           provide secure wireless communications to TSANet. Additionally,
                           TSA has incorporated the required NIST Federal Information
                           Processing Standards 140-2 approved cryptographic module,
                           Advanced Encryption Standard, to help ensure the confidentiality
                           of its wireless communications.

                           To protect its handheld devices, TSA instituted its BES in a
                           centrally managed architecture that supports the implementation of
                           standard security policies on all TSA BlackBerry smartphones.
                           TSA also implemented a local device security policy that requires
                           the user to authenticate with a password to access the handheld
                           device. In addition, TSA implemented a security measure that
                           erases application data after    failed logon attempts and has
                           disabled the camera and video recording functionality to reduce




12
   According to NIST, EAP is an access authentication framework that was originally developed to support 

peer authentication before granting the peer access to the network. The TLS protocol is used to establish a 

protective tunnel where two parties can execute authentication methods. 

13
   RADIUS is an internet-based protocol that facilitates the centralized management of authentication,
 

authorization, and accounting data.
 


             Improvements in Patch and Configuration Management Controls Can Better Protect
                                   TSA’s Wireless Network and Devices

                                                   Page 8
                           potential security concerns in sensitive areas. Further, TSA
                           encrypts the data stored on its BlackBerry devices, as well as data
                           transmitted to and from the devices.

                           FAMS has implemented password protection similar to that
                           instituted by TSA headquarters,
                                          . However,

                                                        . FAMS has set its devices to erase
                           application data after      failed logon attempts and also
                           implemented encryption to aid in securing data-in-transit, as well
                           as data-at-rest, data sent and received, and data stored,
                                       .

                                                                            .

                           Further, TSA has implemented a wireless intrusion detection
                           system, Air Defense, to protect its WLAN from potential malicious
                           activities or threats.14 According to DHS policy, a wireless
                           intrusion detection system should incorporate remote sensors that
                           monitor the airwaves and report findings to a wireless intrusion
                           detection system management appliance.15 These systems scan the
                           airwaves to detect malicious activities such as installation of
                           unauthorized devices, access point outages, wireless client device
                           hijacking, DOS attacks, unauthorized ad hoc or peer-to-peer
                           networks, and other WLAN-specific vulnerabilities. In addition,
                           wireless intrusion detection system sensors may provide
                           triangulation information that assists administrators in identifying
                           attacker location. Figure 2 shows a high-level view of TSA’s
                           WLAN architecture.




14
   Air Defense is a wireless intrusion detection system that can monitor and detect rogue wireless access
points, unauthorized access, and wireless threats, and determine whether use complies with policy.
15
   DHS’ Sensitive System Policy Handbook 4300A, Attachment Q1 – Sensitive Wireless Systems.

             Improvements in Patch and Configuration Management Controls Can Better Protect
                                   TSA’s Wireless Network and Devices

                                                   Page 9
    Figure 2: TSA’S WLAN Architecture
 

                                                         RADIUS       PKI
                                                          Server     Server
         Air Defense                                                                        Internet
           Sensor




                                           LAN
                               Switch   Core Switch
       Wireless Access
            Point                                                         Data Center 1
                                                                        Wide Area Network
                                                                             Router




                                          `            WLAN        Location
                                                                                       Wide Area Network
                                                      Controller   Appliance
                                                                                            Router
      Wireless Workstation   Wired Workstation

    Source: Derived from TSA’s Wireless Infrastructure System Design Document.


              Adequate Physical Security Controls Have Been Implemented

              TSA has implemented adequate physical security controls at the
              facilities where wireless infrastructure and inventory is located.
              We performed physical security assessments at selected TSA and
              FAMS facilities. We did not identify any significant deficiencies
              during these assessments. Figure 3 shows examples of strong
              physical security countermeasures that have been implemented at
              TSA headquarters.




Improvements in Patch and Configuration Management Controls Can Better Protect
                      TSA’s Wireless Network and Devices

                                          Page 10
    Figure 3: Examples of Physical Security Controls
 





        Photo Identification Reminder            Video Surveillance Monitoring Station




       Server Room Security Camera                 Security Booth at TSA Headquarters

             Furthermore, we identified that TSA:

                 Conducted annual site security assessments at selected
                 domestic and international airports. Specifically, TSA
                 performed physical and logical security reviews, including
                 wireless scans to identify any unauthorized (i.e., “rogue”)
                 access points, at several airports each year. Based on our
                 reviews of TSA’s fiscal year 2009–2010 site security reports,
                 no rogue wireless access points were identified.

                 Performed site surveys prior to implementing its wireless
                 infrastructure project at headquarters. Site assessments were
                 conducted at TSA headquarters in November 2007 to identify
                 wireless infrastructure requirements, define the physical
                 design, and test for potential signal leakage.




Improvements in Patch and Configuration Management Controls Can Better Protect
                      TSA’s Wireless Network and Devices

                                   Page 11
                               Authorized TSANet and FAMSNet to operate in October and
                               April 2010, respectively. Our quality review of the security
                               authorization packages did not reveal any significant
                               deficiencies. Each system was authorized according to
                               applicable DHS, Office of Management and Budget, and NIST
                               guidance.

                           Conclusion

                           In addition to the steps taken, we identified further actions that
                           TSA can take to ensure that the sensitive data processed by its
                           wireless components is better protected from potential threats and
                           exploits. As discussed in the following sections, we identified
                           high-risk patch management vulnerabilities on the three systems
                           tested.16 TSA’s existing patch management process can be
                           improved to ensure that security patches are timely deployed to
                           address system vulnerabilities identified. In addition, we
                           determined that TSA has not fully implemented DHS’ baseline
                           configuration settings on all of its wireless devices and supporting
                           infrastructure. Our recommendations will enable TSA to better
                           protect its wireless network, systems, and devices from potential
                           exploits and address the risks and security challenges associated
                           with the use of wireless technology.

           Missing Security Patches Weaken Wireless Security
                   TSA and FAMS must improve patch and configuration management
                   processes on their servers and routers to ensure that controls implemented
                   on the wireless network cannot be circumvented. We reviewed the
                   communication protocols, patch management processes, and configuration
                   controls implemented on TSA and FAMS wireless infrastructures to
                   determine the effectiveness of controls implemented. We used Tenable
                   Nessus to conduct patching vulnerability assessments of the supporting




16
     The three systems tested were FAMSNet, the End-User Computing system, and TSA’s BES.

              Improvements in Patch and Configuration Management Controls Can Better Protect
                                    TSA’s Wireless Network and Devices

                                                 Page 12
                   infrastructure and client devices at TSA headquarters and at FAMS
                   facilities in Virginia.17

                   Our vulnerability scans at TSA headquarters included a sample of 243
                   user laptops, the BES infrastructure servers, and their supporting SQL
                   server, all of which enable BlackBerry operations. We also performed
                   vulnerability assessments on the FAMS BES server cluster. FAMS’ user
                   laptops were not scanned for security vulnerabilities because they do not
                   offer wireless connectivity to FAMSNet.

                          TSA Headquarters Vulnerability Assessments

                          At TSA headquarters, we identified            vulnerabilities on
                          Microsoft Windows XP laptops and the BES supporting
                          BlackBerry devices. The vulnerabilities identified were classified
                          as high-, medium-, and low-risk. The level of risk assigned was
                          based on the severity of damage the vulnerabilities could inflict on
                          a host computer. Figure 4 shows the number of unique high-,
                          medium-, and low-risk vulnerabilities identified by system type.

        Figure 4: Unique Vulnerabilities by System Type at TSA HQ
                                                     High         Medium           Low            Total

          TSA Headquarters Laptops

          BES Supporting Infrastructure

          Totals

                          Our scans identified a total of       unique vulnerabilities. Because
                          medium- and low-risk vulnerabilities do not pose significant
                          threats, our analysis of the results focused on the      unique
                          high-risk vulnerabilities. Overall, our scans identified
                          instances of high-risk vulnerabilities on TSA headquarters’ laptops
                          and       instances of high-risk vulnerabilities on the BES. Unless




17
  Tenable Nessus (Professional Feed) is an up-to-date remote vulnerability software scanning tool for
Windows, Linux, Berkeley Software Distribution, Solaris, Apple, and other systems. It is multithreaded,
plug-in based, and currently performs more than a thousand remote security checks.

            Improvements in Patch and Configuration Management Controls Can Better Protect
                                  TSA’s Wireless Network and Devices

                                                 Page 13
             addressed immediately, each instance of vulnerability provides an
             attacker with the potential opportunity to exploit a system.

             Of the 243 laptops scanned, only contained high-risk
             vulnerabilities; the remaining     had medium- and low-risk
             vulnerabilities. Some vulnerabilities identified on TSA
             headquarters’                           .         BES that were
             scanned contained high-risk vulnerabilities. Many of the
             vulnerabilities we identified on headquarters’ systems include
             those for

                                                                                 . Other
             vulnerabilities involved
                                                                    . These
             vulnerabilities include


                                                 . Appendix C lists examples of
             unique high-risk vulnerabilities identified and the potential threats.

             Security and software patches are issued to add or update features
             and mitigate security vulnerabilities. Applying patches can reduce
             the number of vulnerabilities that may affect a system’s security
             posture. Currently, TSA downloads and tests Microsoft critical
             patches                  as part of its continuous patching process.
             After testing is complete and TSA personnel approve the patches,
             the software updates are pushed out immediately to all TSA
             workstations. Further, all third-party patch updates are pushed out
             using Altiris on an as-needed basis, after receiving approval from
             TSA personnel. The results of our vulnerability assessments
             revealed that

                                                  .


                                  .

             DHS requires components to reduce security vulnerabilities
             through testing and management, promptly installing patches, and




Improvements in Patch and Configuration Management Controls Can Better Protect
                      TSA’s Wireless Network and Devices

                                      Page 14
                    eliminating or disabling unnecessary services. In addition, NIST
                    recommends that security and software patches on operating
                    systems and applications be kept up-to-date.

                                              system vulnerabilities that are not
                    mitigated could compromise the TSA data accessed through its
                    wireless infrastructure. If the security vulnerabilities we identified


                                              .                                  ,
                    unauthorized individuals could gain access to TSA’s data and
                    resources.

                    FAMS Vulnerability Assessments

                    Our scans of the seven FAMS servers identified       unique
                    vulnerabilities, of which were classified as high-risk
                    vulnerabilities. In total, Tenable Nessus identified   instances of
                    high-risk vulnerabilities on the seven servers scanned. Figure 5
                    shows the number of unique high-, medium-, and low-risk
                    vulnerabilities that were identified from the            .
                    Appendix D lists examples of unique high-risk vulnerabilities
                    identified and the potential system threats.

     Figure 5: Unique Vulnerabilities by System Type at FAMS
                                               High         Medium          Low         Total




     Total




                                                                                 .





18

                                                                                   .

       Improvements in Patch and Configuration Management Controls Can Better Protect
                             TSA’s Wireless Network and Devices

                                          Page 15
                                                                  .

                                                                                 .

    We discussed the vulnerabilities identified and provided TSA headquarters
    and FAMS system personnel with our analyses of the technical results.
    TSA headquarters and FAMS system personnel reviewed our analyses and
    have begun taking actions to mitigate the vulnerabilities.

    Recommendations
             We recommend that the TSA Chief Information Officer:

             Recommendation #1: Revise the patch management process to
             ensure that security patches are deployed timely to mitigate the
             vulnerabilities identified and better secure headquarters wireless
             systems.

             Recommendation #2: Revise the patch management process to
             ensure that security patches are deployed timely to mitigate the
             vulnerabilities identified and better secure the FAMS            .

    Management Comments and OIG Analysis
             TSA concurred with recommendation 1. Immediately prior to our
             audit, TSA had just completed a major transition of its Managed
             Services contract. As part of this transition, the environments used
             to test the software changes on TSA systems were unavailable and
             a backlog of software changes, including patches, resulted. The
             TSA Testing Environment is now available for end user assets
             (desktops) and will soon be available for enterprise level devices
             (servers). The backlog of patches on end user assets is being
             actively worked. As part of the Managed Services Transition, the
             new service provider has assessed the current Enterprise Patch
             Management System (Altiris) and has found several areas for




Improvements in Patch and Configuration Management Controls Can Better Protect
                      TSA’s Wireless Network and Devices

                                   Page 16
               improvement. Improvement in these areas will strengthen the TSA
               Patch Management Program. Another area that TSA has identified
               as in need of improvement is image version control. TSA has an
               effort underway that will result in TSA having a single end user
               image. Having a single image will greatly reduce the complexity
               of running an effective Patch Management Program.

               OIG Analysis

               We agree with the actions being taken to satisfy the intent of this
               recommendation. This recommendation will remain open until
               TSA provides documentation to support that the planned corrective
               actions are completed.

               TSA concurred with recommendation 2. According to
               management, the appropriate patches have been applied, which has
               closed these potential vulnerabilities on the TSA FAMS
                       . Correspondence containing proof of the installed patches
               was provided to the OIG on March 29, 2011. TSA requests that
               this recommendation be closed.

               OIG Analysis

               FAMS personnel provided us with documentation showing that the
               patching issues we identified had been addressed. The
               documentation provided satisfies the intent of this
               recommendation. We consider this recommendation resolved and
               closed.

DHS’ Baseline Configuration Controls Have Not Been Fully
Implemented on All Wireless Devices and Supporting
Infrastructure Systems
      Although TSA, including FAMS, has implemented a number of
      configuration controls on its supporting wireless infrastructure and
      devices, we identified instances of noncompliance with DHS
      requirements. The improper configuration of system security settings
      within a network can compromise wireless security and leave TSA’s




  Improvements in Patch and Configuration Management Controls Can Better Protect
                        TSA’s Wireless Network and Devices

                                     Page 17
    sensitive data at risk. To evaluate compliance with DHS’ baseline
    configuration settings, we interviewed system administrators and assessed
    supporting system documentation provided against criteria checklists that
    are based on the department’s guidance.

    DHS requires, per the Federal Information Security Management
    Act of 2002, that components implement baseline security settings on their
    operating systems and appliances. For example, DHS has provided
    detailed guidance for IT enterprise elements such as Microsoft Windows
    XP, Windows SQL Server 2005, Windows Server 2003 and 2008, and
    Windows Active Directory structure. Guides are also published for
    network appliances, such as Cisco routers and switches. The guides are
    distributed to provide DHS systems administrators with a clear, concise
    set of procedures that will ensure a minimum baseline of security when
    installing or configuring an existing system. The guides also provide
    system administrators with the information necessary to modify the
    settings and to comply with DHS policy and architecture requirements.

             TSA Headquarters Configuration Control Issues

             We manually assessed the configuration settings applied to
             standard user Windows XP laptop computers at TSA headquarters.
             Configuration settings of laptops are enforced by Group Policy
             Objects that are pushed by TSA’s Domain Controllers. We also
             reviewed the BES server, the back-end supporting SQL server,
             Cisco wireless control system, and a router for compliance with
             applicable DHS baseline configuration guidelines.

             We identified one noncompliance issue with DHS’ Secure
             Baseline Configuration Guide for Windows XP systems on TSA’s
             laptop computers.

                                                                                 .


                                                                        .


                                                      .




Improvements in Patch and Configuration Management Controls Can Better Protect
                      TSA’s Wireless Network and Devices

                                   Page 18
                           .

             We also reviewed the configuration settings of the security
             controls established on the wireless control system, which is a
             multifunctional wireless management utility that manages all
             wireless LAN controllers and wireless access points. Specific
             noncompliance issues related to local audit logging functions, a
             weak authentication protocol, and terminal services. Furthermore,
             we reviewed the security controls for one of TSA’s routers and
             identified noncompliance issues regarding the disabling of unused
             router interfaces and a disallowed service.

             FAMS Configuration Control Issues

             We conducted manual reviews at FAMS facilities to assess the
             configuration settings implemented on the
                                                       . We identified
                    instances of noncompliance,


                                                                            .


                               .

             The improper configuration of system security settings on TSA’s
             and FAMS’ wireless network infrastructure and devices can allow
             an unauthorized individual the opportunity to take advantage of
             system weaknesses and gain access to sensitive data. This issue
             can affect the confidentiality, availability, and integrity of TSA’s
             and FAMS’ information.




Improvements in Patch and Configuration Management Controls Can Better Protect
                      TSA’s Wireless Network and Devices

                                   Page 19
    Recommendations
             We recommend that the TSA Chief Information Officer:

             Recommendation #3: Implement corrective measures to address
             instances of noncompliance with DHS’ security policy on TSA
             wireless systems and devices.

             Recommendation #4: Implement corrective measures to address
             instances of noncompliance with DHS’ security policy on FAMS’
             wireless device support infrastructure.

    Management Comments and OIG Analysis
             TSA concurred with recommendation 3. According to
             management, this recommendation is for the
                                     discovered during the audit. DHS
             policy requires
                                      .

                                    .


                                        .
                                                            .

             TSA mitigates the risk of              associated with this finding
             by the use of file encryption. TSA deploys Credant Mobile
             Guardian as part of the base image to provide file-based encryption
             to all machines that are deployed within the TSA environment. By
             encrypting the files on the drive,                      , TSA
             mitigates any risk that could be caused by not adhering to the DHS
             policy.

             OIG Analysis

             We agree that the action being taken satisfies the intent of this
             recommendation. This recommendation will remain open until




Improvements in Patch and Configuration Management Controls Can Better Protect
                      TSA’s Wireless Network and Devices

                                   Page 20
             TSA provides documentation to support that the planned corrective
             action is completed.

             TSA concurred with recommendation 4. FAMS does not have a
             wireless system within its IT environment but instead uses the
             wireless capabilities of various service providers. The FAMS
             mobile devices traverse these wireless networks in a secure manner
             using encryption and other protection measures. The OIG did not
             identify any findings related to the mobile devices; however, there
             were findings related to the back-end infrastructure that supports
             the mobile devices.

             Actions related to the OIG's findings fall into two general areas, as
             detailed below:

             A) Concur and corrected: FAMS corrected the potentially
                vulnerable service file setting and the use of the Dynamic Host
                Configuration Protocol server service on the perimeter router.
                Proof was provided to the OIG as part of the TSA technical
                comments response.

             B) Concur and exception to be requested: The following
                configurations are needed for the proper functioning of the IT
                infrastructure, and exceptions to policy will be submitted for
                each:

                                                                                 .

             TSA will submit the needed exception requests for the three items.

             OIG Analysis

             We agree that the actions being taken satisfy the intent of this
             recommendation. Although the documentation FAMS personnel
             provided shows that configuration setting issues we identified have
             been addressed, this recommendation will remain open until
             FAMS provides documentation to support that the other planned
             corrective actions are completed.




Improvements in Patch and Configuration Management Controls Can Better Protect
                      TSA’s Wireless Network and Devices

                                   Page 21
Appendix A
Purpose, Scope, and Methodology

                      The objective of our audit was to determine whether TSA has
                      implemented effective controls to ensure that sensitive information
                      processed by its wireless networks and devices is protected from
                      potential exploits. Specifically, we determined whether TSA has
                      (1) implemented adequate policies and procedures to mitigate the
                      inherent risks associated with the use of wireless networks and
                      devices, (2) implemented an effective process to properly account
                      for its wireless networks and devices, (3) employed adequate
                      physical security controls over its wireless networks,
                      (4) implemented effective system security controls and properly
                      configured its wireless networks and devices, (5) employed active
                      monitoring of its wireless networks and devices to enforce wireless
                      security policy, and (6) certified and accredited its wireless
                      networks in accordance with applicable DHS and Federal
                      Information Security Management Act requirements.

                      Our audit focused on the requirements and recommendations
                      outlined in the following documents:

                              DHS’ Sensitive System Policy Handbook 4300A, including
                              Attachment Q1: Sensitive Wireless Systems
                              NIST SP 800-37 – Guide for Applying the Risk
                              Management Framework to Federal Information Systems:
                              A Security Life Cycle Approach
                              NIST SP 800-48 – Guide to Securing Legacy IEEE 802.11
                              Wireless Networks
                              NIST SP 800-53 – Recommended Security Controls for
                              Federal Information Systems and Organizations
                              NIST SP 800-94 – Guide to Intrusion Detection and
                              Prevention Systems
                              NIST SP 800-120 – Recommendation for Extensible
                              Authentication Protocol (EAP) Methods Used in Wireless
                              Network Access Authentication
                              NIST SP 800-121 – Guide to Bluetooth
                              DHS’ Cisco Device (Router/Switch) Configuration
                              Guidance
                              DHS’ Windows Server 2003 Configuration Guidance




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                            Page 22
Appendix A
Purpose, Scope, and Methodology

                              DHS’ Windows XP Secure Baseline Configuration Guide
                              DHS’ SQL Server Secure Baseline Configuration Guide
                              TSA-specific guidance, including the TSA Management
                              Directive 1400.3 – Information Technology Security, TSA
                              Information Technology Security Handbook, and Office of
                              Information Technology’s technical standards
                              Federal Information Security Management Act of 2002

                      We interviewed selected personnel and management officials at
                      TSA headquarters and airport facilities. Specifically, we
                      interviewed the Dulles Federal Security Director; Las Vegas
                      Acting Deputy Federal Security Director; TSA’s Deputy Division
                      Chief, Office of Security; Chief, Property Management Policy;
                      information system security officers; and an IT and property
                      management specialist. For FAMS, we interviewed the FAMS
                      Deputy Assistant Director; Branch Chief, FAMS Headquarters
                      Security; Chief, IT Security; Las Vegas Assistant Special Agent in
                      Charge; Property Management Branch Manager; and several other
                      staff members, including system administrators and IT specialists.

                      We also reviewed and evaluated TSA’s security policies, standard
                      operating procedures, training data, security authorization
                      packages, and other appropriate documentation. We performed
                      physical security assessments at selected TSA and FAMS facilities.
                      In addition, we used Tenable Nessus scanning software to identify
                      vulnerabilities on wireless components. We also used wireless
                      scanning tools such as AirMagnet Wi-Fi Analyzer Pro, Black Box
                      Wi-Net Detector, and ViStumbler to identify signal leakage, rogue
                      wireless access points, and unauthorized wireless devices.
                      Furthermore, we performed manual reviews to ensure that TSA’s
                      wireless devices (i.e., laptops) are properly configured in accordance
                      with applicable guidance. We initially included the detection and
                      identification of Bluetooth personal area network connections at
                      TSA headquarters and FAMS in the audit plan. However, due to
                      technical difficulties experienced early in audit fieldwork, Bluetooth
                      testing was removed from the scope of the audit.




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                            Page 23
Appendix A
Purpose, Scope, and Methodology

                      Fieldwork was performed at TSA and FAMS headquarters in
                      Virginia; TSA’s inventory warehouse in Virginia; Dulles
                      International Airport in Chantilly, Virginia; McCarran
                      International Airport in Las Vegas, Nevada; TSA’s Freedom
                      Center in Ashburn, Virginia; and several other FAMS facilities in
                      Ashburn, Virginia; Las Vegas, Nevada; Egg Harbor, New Jersey;
                      and Philadelphia, Pennsylvania.

                      We conducted this performance audit between November 2010 and
                      April 2011 pursuant to the Inspector General Act of 1978, as
                      amended, and according to generally accepted government
                      auditing standards. Those standards require that we plan and
                      perform the audit to obtain sufficient, appropriate evidence to
                      provide a reasonable basis for our findings and conclusions based
                      upon our audit objectives. We believe that the evidence obtained
                      provides a reasonable basis for our findings and conclusions based
                      upon our audit objectives. Major OIG contributors to the audit are
                      identified in Appendix E.

                      The principal OIG point of contact for the audit is Frank Deffer,
                      Assistant Inspector General, IT Audits, at (202) 254-4100.




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                            Page 24
Appendix B
Management Comments to the Draft Report




                                                                              U.S. Drp.rtmrnt or Homelaftd SKurlty
                                                                              601 Sowh 12th Street
                                                                              Arlington, VA 20S98


                                                                              Transportation
                                                                              Security
             JUN 282011                                                       Administration


                                                  INFORMATION


         MEMORANDUM FOR:                Charles Edwards
                                        Acting Inspector General
                                        U.S. Department of Homeland Security

         FROM:                          John S.
                                                    V-., V
                                                PistoleaJ~
                                        Administrator

         SUBJECT:                       Transportation Security Administration's (TSA) Response to
                                        Department of Homeland Security (DHS) Office of Inspector
                                        General's OIG Draft Repert Titled Improvements in Patch and
                                        Configuration Management Controls Can Better Protect TSA's
                                        Wireless Network and Devices, OIG Project No. I I-OOS-ITA-TSA,
                                        May 201 I




         This memorandum constitutes the formal respense by TSA to the draft repert from the DHS
         Office of Inspector General (OIG) titled Improvements in Patch and Configuration Management
         Controls Can Better Protect TSA's Wireless Network and Devices, May 20 II. TSA recognizes
         the importance of effective controls to protect sensitive information processed through wireless
         networks and devices, and we appreciate the opportunity to review and provide comments to
         OIG's draft repert.

         Background

         On November 3, 2010, DHS/OIG commenced an audit of the TSA wireless security. The
         objective of that audit was to determine whether TSA implemented effective controls to protect
         sensitive information from potential exploits as processed by wireless networks and devices.
         The audit included wireless network components and mobile devices at TSA Headquarters, TSA
         laptops,                               , as well as several field office facilities and devices used
         hy the Federal Air Marshal Service (F AMS).




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                                     Page 25
Appendix B
Management Comments to the Draft Report



                                                                                                        2


         Discussion

         As noted in the draft report, DIG detennined that TSA has implemented effective physical and
         logical security controls to protect its wireless network and devices. DIG did not detect the
         presence of any rogue or unauthorized wireless networks or devices attributed to TSA or FAMS.
         Although signal leakage from TSA's wireless network was identified, OIG detennined that this
         was not a security risk due to the implemented mitigating controls. Results from the audit
         confirmed that TSA's implementations of its wireless network and mobile devices were largely
         problem free.

         TSA appreciates DIG's recognition that "TSA has implemented policies, processes, and
         mitigating physical and system controls to protect its [wireless local area network], supporting
         infrastructure, and devices from potential exploits," and DIG's further acknowledgement that
         "FAMS has actively worked to secure its infrastructure from the risks associated with the
         wireless and Bluetooth devices." The OIG audit team did identify high-risk vulnerahilities
         involving patch and configuration controls on two of the four systems tested. The DIG
         recommends, and TSA concurs, that improvements are needed to further enhance the security of
         wireless components and the back-end infrastructure, and to fully comply with the Department's
         infonnation security policics. All of the identified findings have been addressed or corrected.
         The OIG's efforts are appreciated and have resulted in the increased protection of wireless
         infrastructure against potential risks, threats, and exploits for both TSA and FAMS.

         Rec:ommendation #1: Revise the patcb management process to ensure tbat security patches
         are deployed timely to mitigate tbe vulnerabilities identified and better sec:ure
         headquarters wireless systems.

         TSA Concurs: Immediately prior to the OIG Audit, TSA had just completed a major transition
         of its Managed Services contract. As part of this transition, the environments used to test the
         software changes on TSA systems were unavailable and a backlog of software changes,
         including patches, resulted. The TSA Testing Environment is now available for end user assets
         (desktops) and will soon be availahle for enterprise level devices (servers). The hacklog of
         patches on end user assets is being actively worked. As part of the Managed Services Transition,
         the new service provider has assessed the current Enterprise Patch Management System (Altiris)
         and has found several areas for improvement. Improvement in these areas will strengthen the
         TSA Patch Management Program. Another area that TSA has identified as in need of
         improvement is image version controL TSA has an effort underway that will result in TSA
         having a single end user image. Having a single image will greatly reduce the complexity of
         running an effective Patch Management Program.


         iiiIiIiiI.
         Recommendation #2: Revise the patch management process to ensure that security patches
                   timely to mitigate the vulnerabilities identified and better secure the FAMS




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                                   Page 26
Appendix B
Management Comments to the Draft Report



                                                                                                          3


         TSA Concurs: The appropriate patches have been applicll, which has closed these poteotial
         vuloerabilities on tbe TSA FAMS
         Correspondence containing proofof the installed patches was provided to the GIG on March 29,
         2011. TSA requests that this reeommendation be closed.

         Recommendation #3: Implement corrective measures to address instances of
         noncompliance with DHS' security policy on TSA wireless systems and devices.

         TSA Concurs: This recommendation is for the
         discovered during the audit. DHS policy r uires c




         TSA mitigates the risk of          associated with this finding by the use of file encryption.
         TSA deploys Credant Mobile Guardian as part of the base image to provide file based encryption
         to all ~yed within the TSA environment. By encrypting the files on the
         d r i v e , _ . TSA mitigates any risk that could be caused by not adhering to the
         DHS policy.

         Recommendation #4: Implement corrective measures to address instances of
         noncompliance with DHS' security policy on FAMS wireless systems and devices.

         TSA Concurs: FAMS does not have a wireless system within its information technology (IT)
         environment but instead uses the wireless capabilities of various sendce providers. The FAMS
         mobile devices traverse these wireless networks in a secure manner using encryption and other
         protection measures. OIG did not identify any findings related to the mobile devices; however,
         there were findings related to the back·end infrastructure that supports the mobile devices.
         Actions related to OIG's findings fall into two general areas as detailed below:

         A) Concur and corrected: FAMS corrected the potentially vulnerable service file setting and the
            use of the Dynamic Host Control Protocol server service on the perimeter router. Proof was
            provided to the OIG as part of the TSA technical comments response.

         B) Concur and exception to be requested: The following configurations are needed for the
             proper functioning of the IT infrastructure and exce tions to    lie will be submitted for
             each:



         TSA will submit the needed exception requests for the three items.




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                                    Page 27
Appendix C
Examples of TSA Headquarters High-Risk Vulnerabilities




                                                                                                 .




                                                                             .



                                                                                 .




                                                                                     .


                                                                                 .




                                                                                         .




                                                                         .


                                                                                             .




                                                                     .




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                            Page 28
Appendix D
Examples of FAMS High-Risk Vulnerabilities




                                                                     .



                                                                    .


                                                                         .




                                                                                          .




                                                                                                  .




                                                                                              .




                                                                                     .




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                            Page 29
Appendix E
Major Contributors to this Report

                      Information Security Audit Division

                      Chiu-Tong Tsang, Director
                      Barbara Bartuska, IT Audit Manager
                      Mike Horton, IT Officer
                      Aaron Zappone, Team Lead
                      Thomas Rohrback, IT Specialist
                      Michael Kim, IT Auditor
                      Amanda Strickler, IT Specialist
                      David Bunning, IT Specialist
                      Anna Hamlin, Referencer




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                            Page 30
Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Administrator, TSA
                      Chief Information Officer, DHS
                      Chief Information Security Officer, DHS
                      Chief Information Officer, TSA
                      Chief Information Security Officer, TSA
                      Director, Compliance and Oversight Program, DHS
                      Deputy Director, Compliance and Oversight Program, DHS
                      Chief, IT Security, FAMS
                      Director, GAO/OIG Liaison Office
                      Chief Information Security Officer Audit Liaison, DHS
                      TSA Audit Liaison
                      FAMS Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




         Improvements in Patch and Configuration Management Controls Can Better Protect
                               TSA’s Wireless Network and Devices

                                            Page 31
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
